TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Report on Audit of Compliance With Cost
                  Accounting Standard 404, Capitalization of
                              Tangible Assets



                                         September 2005

                             Reference Number: 2005-1C-171




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 29, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                           Daniel R. Devlin
                                 Assistant Inspector General for Audit (Headquarters Operations
                                 and Exempt Organizations Programs)

 SUBJECT:                        Report on Audit of Compliance With Cost Accounting Standard 404,
                                 Capitalization of Tangible Assets (Audit # 20051C0237)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s cost accounting
 practices to determine whether the contractor complied with the requirements of Cost
 Accounting Standard 404, Capitalization of Tangible Assets, and any applicable Federal
 Acquisition Regulation1 Part 31 requirements during the period December 1, 2002, through
 November 30, 2003.
 According to the DCAA, the contractor complied in all material respects with the requirements
 of Cost Accounting Standard 404 during the period December 1, 2002, through
 November 30, 2003. The DCAA also reported that the contractor’s accounting system is
 adequate for the accumulation and reporting of costs under Federal Government contracts.
 The DCAA audit report was dated December 2003; however, we did not receive a copy of the
 report until August 2005. Neither the Internal Revenue Service nor the Treasury Inspector
 General for Tax Administration is shown on the DCAA report distribution list. We are
 transmitting the report to you to assist in the management of the contract and to enable the


 1
     48 C.F.R. pt 1-53 (2002).
                Report on Audit of Compliance With Cost Accounting Standard
                           404, Capitalization of Tangible Assets



Internal Revenue Service to track any financial accomplishments derived from negotiations with
the contractor based on results from the DCAA report.
The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
